OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/IRAQ’S
COMMUNITY ACTION
PROGRAM II
AUDIT REPORT NO. E-267-08-005-P
August 5, 2008




BAGHDAD, IRAQ

Office of Inspector General


August 5, 2008

MEMORANDUM

TO:       	          Acting USAID/Iraq Mission Director, Denise A. Herbol

FROM: 	              Director, Office of Inspector General/Iraq, Jay R. Rollins /s/

SUBJECT:	            Audit of USAID/Iraq’s Community Action Program II
                     (Report No. E-267-08-005-P)

This memorandum transmits our final report on the subject audit. The report includes four
recommendations. We have considered management’s comments on the draft report and have
included them in their entirety as appendix II of this report.

Based on those comments, we consider that management decision has been reached on all
four recommendations. Please provide evidence of final action on each recommendation to the
Audit Performance and Compliance Division upon completion.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.




U.S. Agency for International Development
OIG/Iraq
APO, AE 09316
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................ 4 


     Performance Indicator Targets Were
     Not Always Realistic or Consistently
     Defined........................................................................................................................ 5 


     Quality of Performance Results
     Data Needs to Be Enhanced..................................................................................... 11 


Evaluation of Management Comments ....................................................................... 14 


Appendix I – Scope and Methodology ........................................................................ 15 


Appendix II – Management Comments ....................................................................... 17 


Appendix III – Community Action Program II Results Framework........................... 19 


Appendix IV – Comparison of Intermediate Results for Year I ................................. 20 

SUMMARY OF RESULTS

The Office of Inspector General in Iraq conducted this audit to determine whether
USAID/Iraq’s Community Action Program II was achieving planned results and to
determine the impact of those results. Started in October 2006, this $150 million
program was designed to promote the development of stable communities by assisting
them in identifying and prioritizing problems, managing conflict constructively, meeting
challenges with local and external resources, and incubating democratic principles.
(See pages 2-3.)

We found evidence that USAID/Iraq’s Community Action Program II had accomplished
many projects designed to create a foundation for sustainable development. (See page
4.)

However, regarding the achievement of planned results and impact, we found that
USAID/Iraq did not ensure that baseline values for performance indicators designed to
measure progress were determined at the beginning of the program. This sometimes
resulted in the establishment of unrealistic targets.         Also, targets for program
performance indicators varied from one source to another in such a manner that we
could not determine definitively which targets were in effect during the time of our audit.
(See pages 5-10.) Although USAID/Iraq has taken steps to improve the quality of
performance data following a prior audit of the predecessor Iraq Community Action
Program that noted data quality issues, data quality problems continued in the current
program. (See pages 11-13.)

This report contains four recommendations. We recommended that USAID/Iraq: 1)
reevaluate whether current targets are realistic and ensure that realistic targets are
included in the performance management plan and Project Reporting System, 2)
develop procedures to ensure that changes to performance indicators and targets are
properly documented, 3) perform a data quality assessment to ensure that system flaws
are identified and remedied, and 4) develop a plan to standardize data collection
processes and analysis methods among the implementing partners to ensure that
reported information is consistent and reliable. (See pages 10 and13.)

In response to our draft report, USAID/Iraq management agreed with all four
recommendations and described corrective actions planned or taken to implement each
recommendation. Based on those comments, we consider management decisions to
have been reached on all four recommendations. (See page 14.)




                                                                                         1
BACKGROUND

The Office of Inspector General/Iraq conducted this audit to determine whether
USAID/Iraq’s Community Action Program II was achieving planned results, and to
determine the impact of those results. The program began on October 1, 2006 and was
scheduled to end on September 30, 2008. The program was originally allocated $95
million, but that allocation was subsequently increased by $55 million in September 2007,
bringing the total to $150 million. The entire amount of $150 million had been obligated and
$75.7 million disbursed as of May 26, 2008.

The ultimate goal of the program was to “strengthen responsible and effective local
governance in Iraq by institutionalizing community-level mechanisms and capacity for
citizen participation in local decision-making and development.” The program was
designed to promote grassroots democracy and better local governance via a “project and
process” methodology of demand-driven community development. This was to be
accomplished through the establishment of Community Action Groups (CAGs)
comprised of volunteers elected in “town-hall” like meetings who would then spearhead
community-prioritized development projects. Projects were to be principally funded by
USAID, but also draw upon community and local government contributions. Typical
projects consisted of improving community schools, health, roads and bridges, water
and sewerage, and business/economic development. This methodology has been
utilized by prior USAID programs in other countries that have experienced conflict.

USAID/Iraq implemented the program through a single cooperative agreement with an
“umbrella” implementing partner that would then pass a portion of the funding on to three
other implementing partners.        Each of the four partners was responsible for
implementing the program in a different geographic region of Iraq. The current program
continued the work of a prior Iraq Community Action Program which began in May 2003
and ended on April 30, 2007.




CAP II-funded construction of a school in an area   Prior to the provision of this CAP II-funded
experiencing an influx of displaced families.       medical waste incinerator, hazardous
Source: USAID/Iraq                                  hospital waste was mixed with general
                                                    community waste. Source: USAID/Iraq



                                                                                                   2
AUDIT OBJECTIVE
As part of its fiscal year 2008 annual audit plan, the Office of Inspector General/Iraq
conducted this audit to answer the following question:

   •	 Are USAID/Iraq’s Community Action Program II activities achieving planned results,
      and what is the impact of those results?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      3
AUDIT FINDINGS

Performance information, most notably reports from implementing partners, provincial
reconstruction team members, and independent program monitors, indicated that
positive program activities were taking place in USAID/Iraq’s Community Action Program
II. The implementing partners, coordinated through a single prime partner, have issued
annual and quarterly reports highlighting program achievements in their respective areas
of responsibility throughout Iraq. These reports contained detailed information regarding
specific projects, as well as on-site photographs. The partners also provided weekly
reports to the provincial reconstruction teams operating in their geographic regions. The
USAID representatives on the provincial reconstruction teams were designated as
activity managers and, as such, their role included reviewing the weekly reports,
approving quarterly work plans, suggesting potential projects, and making site visits on
an occasional basis.

Reports from USAID/Iraq’s monitoring and evaluation contractor1 also provided
convincing evidence that project activities were successfully taking place. For example,
the contractor visited 221 projects to validate whether those projects actually existed.
Once confirmed, monitors moved on to inspect project use, sustainability, and
acceptance by the community. In a report issued in August 2007, the monitoring
contractor indicated that over 90 percent of the projects visited were operational and that
the remaining 10 percent were often not operational for justifiable reasons. Examples of
projects that were operational included the following:

    •	 Installation of a water network and water station provided safe drinking water for
       several villages in the Karbala Governorate,
    •	 Construction of a new sports hall in Maysan provided youth with a place to
       practice and organize sport contests, and
    •	 Desks and blackboards were provided for nine schools in Basra, before the
       project children sat on the floor and teachers were not able to use the old faded
       blackboards.

However, regarding the achievement of planned results, we found a lack of realistic and
consistently defined performance targets, as well as problems with performance data
quality. Further, because of delays in obtaining baseline data and the lack of
comparable measurements over time we were unable to determine the impact of the
program on higher-level objectives. These issues are discussed in the following
sections.




1
  Due to the lack of security in Iraq, USAID utilizes the services of a contractor to monitor program activities
that would normally be monitored by USAID employees.


                                                                                                              4
Performance Indicator Targets Were
Not Always Realistic or Consistently Defined

    Summary: USAID policy states that establishing performance indicators is
    necessary for assessing program performance and that performance targets should
    be set that are optimistic but realistic. We found that USAID/Iraq did not ensure
    that baselines for performance indicators designed to measure progress over time
    were determined at the beginning of the program, sometimes resulting in the
    establishment of unrealistic targets.      Furthermore, targets for performance
    indicators varied from one program source to another in such a manner that we
    could not determine definitively which targets were in effect during the time of our
    audit. The lack of realistic or consistently defined performance indicator targets
    diminishes the ability to measure performance results which makes it difficult for
    program managers and other stakeholders to assess the program’s progress and
    to make necessary adjustments to assure achievement of higher-level goals.

According to ADS 203, one of the primary tools the Agency uses to manage for results is
a performance management plan, which contains a results framework as one of its
critical components. This framework illustrates the steps needed to reach USAID’s
goals by showing how lower-level results contribute to the achievement of higher-level
objectives. The performance management plan defines specific performance indicators,
determines baselines, and sets targets for those indicators. USAID uses performance
indicators to observe progress by comparing actual results to planned targets.

ADS 203.3.4.5 states that for each performance indicator in a performance management
plan, USAID operating units should include baselines and set performance targets that
can optimistically but realistically be achieved within the stated timeframe and with the
available resources. The ADS goes on to define a baseline indicator as “the value of
a performance indicator before the implementation of USAID-supported activities
that contribute to the achievement of the relevant result.” Baseline data and
performance targets are critical to managing for results because they are key reference
points for assessing program performance. Baseline data establishes a reference point
for the start of the program period.

ADS 203.3.4.7 indicates that USAID operating units may change, add, or drop
performance indicators based on a compelling reason, but that changing performance
indicators frequently may reduce the comparability of performance data over time and
thereby weaken performance management and reporting efforts. The ADS 203.3.4.7
further states that operating units are responsible for documenting those changes by
updating performance management plans to include a brief discussion of the reason(s)
for the change, along with final values for all old indicators and baseline values for any
new indicators.

Chart 1 shows combined partner performance indicator target results for CAP II for year
one from two different USAID sources.2 The chart illustrates that some target indicators


2
 CAP II Annual Program Report Year 1 and USAID Project Reporting System (PRS) as of February 25,
2008


                                                                                              5
for year one were materially over- and under-achieved as well as the discrepancies of
target results from two data sources USAID relies on for monitoring program results.



                                                     Chart 1
                                    Percent Acheivement of Performance Targets

                             450%

                             400%
    Percent of Acheivement




                             350%

                             300%

                             250%

                             200%

                             150%

                             100%

                             50%

                              0%
                                    1   2   3   4   5   6   7   8   9   10 11 12 13 14 15 16 17 18 19 20 21

                                                                Perfomance Target

                                                            Annual Report    PRS Database
See appendix IV for performance indicator titles.



Lack of a baseline assessment led to setting unrealistic targets - Although the
Community Action Program II (CAP II) began in October 2006, the program did not have
an approved performance management plan until February 2007. The plan included a
results framework (see appendix III) which identified five principal program objectives.
Three of the five objectives were matched with higher-level indicators that were selected
to demonstrate whether or not the objective had been achieved. The remaining two
objectives in the results framework dealt with training to build implementing partner
expertise and the implementation of the Marla Ruzicka Iraqi War Victims Fund3 and were
not within the scope of this audit. The three objectives that we audited, along with their
higher-level indicators, are presented in the following table.




3
 The Marla Ruzicka Iraqi War Victims Fund was the subject of a previous OIG audit, Audit of USAID/Iraq’s
Management of the Marla Ruzicka Iraqi War Victims Fund, Report No. E-267-08-002-P, dated April 3, 2008.


                                                                                                              6
Table 1: Program objectives and higher-level indicators reviewed during the audit

                 Program Objective                                     Higher-level Indicator

Objective 1: Enhanced stability and social capital       Percent of survey respondents who report a
through stakeholder cooperation in implementing          decrease in conflict in communities where CAP II
tangible projects that build local capacity to improve   works.
delivery of local services.

Objective 2: Strengthened community-level                Percent of Community Action Group survey
participation in support of a more effective,            respondents who report that their level of
transparent, and democratic sub-national                 engagement with local government has increased.
government.

                                                         Percent of baseline and follow-up survey
Objective 3: Increased opportunities for local
                                                         respondents who report that economic conditions in
economic development at the community level
                                                         their households and communities, including
                                                         employment, have improved.


There were twenty-one lower-level indicators designed to track intermediate results
under the three objectives. (See appendix IV for a list of lower-level indicators and their
related targets.)
USAID’s cooperative agreement with the implementer stated that the implementer would
design and implement a CAP II Baseline Assessment to capture the level of community
mobilization, CAG development, local government linkages, and local economic
opportunities throughout the target areas at the start of CAP II. The Baseline
Assessment would be designed to leverage the existing grassroots data collection
mechanisms of the implementer as well as secondary data available through USAID’s
monitoring contractor and other USAID programs. Results from the Baseline
Assessment would be used to refine, and measure progress against, targets for the CAP
II performance indicators.
However, only higher-level indicators for the three program objectives were measured in
an attitudinal baseline survey of Iraqi communities. The prime implementing partner
conducted the baseline assessment survey and the results were submitted to
USAID/Iraq on March 22, 2007. The survey was conducted in order to “document the
status of several key aspects of the program’s Iraqi context and its citizens’ opinions at
the project’s initiation.” According to the assessment report, the baseline data that was
collected would serve as the basis for assessing the program’s progress and impact in
follow-up assessments.         The assessment consisted of surveys of program
implementers, as well as “ordinary Iraqi community members,” to determine baseline
data in the following areas, among others:

    •    community conflict;
    •    levels of engagement with local governments; and
    •    economic conditions in households and communities.

Although these surveys aligned well with the three objectives and their related higher-
level performance indicators, we noted two weaknesses in the baseline assessment that
limited its usefulness. The first had to do with timing. The results of the assessment
were not made available to USAID/Iraq until almost halfway through the first year of the
CAP II and after the performance management plan had been approved. This reduced



                                                                                                            7
the utility of using that baseline information for setting performance targets at the
beginning of the program and including those targets in the performance management
plan. Further, there were no plans to conduct another assessment until the end of the
two-year program, which is contrary to the assessment report's stated goal of
assessing the program's progress. Consequently, USAID/Iraq would only have one set
of data points against which to measure progress toward achieving the higher-level
objectives during the life of the program. The second weakness dealt with content. The
assessment did not develop any baseline data with respect to the twenty-one lower-level
performance indicators included under the three objectives identified in the performance
management plan.

In addition, even though the predecessor program had been in operation for three years
prior to the start of CAP II, we found no evidence that historical information had been
used to determine baselines or benchmarks for establishing lower level targets because
the rationale in setting targets was not documented. The CAP II performance
management plan, drafted by the implementing partner, was approved with a
qualification by the USAID program manager who noted that the plan needed further
review by USAID for adjustments to the work planning, reporting, and PMP systems to
the provincial level. When the USAID program office reviewed the performance
management plan they requested that the implementer add baseline information for the
performance targets. To date the performance management plan has not been revised
to include the baseline information. We did not find any documented evidence that
baseline data for lower level indicators was developed and used or that a rationale was
proposed for the establishment of the lower level indicator targets.

USAID guidance, “Performance Monitoring and Evaluation TIPS”, states that it is difficult
if not impossible to establish a reasonable performance target without some idea of the
starting point. Ideally, performance baselines - the value of the performance indicator at
the beginning of the planning period - are obtained just prior to the implementation of the
USAID program activities. However secondary data sources for baselines may be relied
on, if available. In this instance, historical information from the predecessor program
was available.

Without a baseline assessment or documentation of the basis for establishing targets to
show that prior activities were used in the process, there was no rationale to
demonstrate that the performance targets established to track the progress and success
of the program were realistic, as required in the ADS. As a result many CAP II
performance targets were reported as grossly over- or under-achieved during the first
year of the program. For example, the target for youth beneficiaries for one
implementing partner was set at 100,000 for the first year while the number reported as
being achieved was 592,030, nearly six times the number targeted. As previously
stated, no documentation exists to explain the basis for setting this or any of the lower-
level indicator targets. Other examples of the over-and under-achieved targets by each
partner are presented in the following table:




                                                                                          8
          Table 2: Percent Achieved for Selected Indicators during the First Year of the
                                        CAP II Program 4
                                                  Partner    Partner      Partner     Partner
                     Indicator                       1           2           3           4
    1.1.1 - Number of local activities completed by
    Community Action Groups (CAGs)5                       50%       13%          45%         32%
    1.1.4 - Number of direct beneficiaries of local CAG
    activities (by category “Youth”)                      592%    3,803%         0%          46%
    3.1.1 - Number of CAGs trained on topics related to
    local economic development                            57%      333%          3%          50%
    3.2.1 - Number of individuals who have received
    skills training for employment or entrepreneurship    2%        23%         147%        1,020%
    3.2.2 - Number of short-term jobs created by CAG
    community activities                                  13%       15%          32%         107%
    3.2.3 - Number of long-term jobs created by CAG
    community activities                                  488%      0%           52%         76%


Targets changed without explanation or authorization – Performance targets
changed during program implementation in various tracking mechanisms used by
USAID to monitor program results. The reasons for the changes were not documented
and were not approved by the USAID program manager.

Various mechanisms were used to track and monitor the program’s achievement of
goals compared to planned activities.6 These included the 1) Performance management
plan (PMP), which establishes performance target indicators for measuring program
results, 2) Annual work plan, which, as required in the grant agreement presents the
comprehensive activities and planned results for the program, 3) USAID Project
reporting system (PRS), which serves as the standardized monitoring system for CAP II
and is intended to capture PMP performance indicators and be compatible with reporting
requirements, and, 4) the annual report which provides detailed reporting and analysis
on progress against annual targets for all PMP indicators. Values for target performance
indicators should be consistent throughout these various document sources.

We noted, however, that these different program sources provided differing targets for
performance indicators. The program manager stated he never approved any of the
changes to the indicators and according to USAID/Iraq records some targets were
changed unilaterally by at least one implementing partner and some targets for the first
year of the program may have even been changed after the year had ended. The
following table demonstrates the varying targets established for a single performance
indicator—the number of local activities (projects) completed by community action
groups.




4
 Source: USAID’s Project Reporting System as of February 25, 2008. Indicator results are depicted as a 

percent of achievement of the established target. 

5
 CAGs – Acronym for Community Action Group – Iraqi community volunteers elected in a town-

hall-type meeting who then spearhead community-prioritized development projects. 

6
  These monitoring sources are drafted and maintained by the implementing partner; however, the USAID

program manager has final approval of the performance management plan.



                                                                                                     9
              Table 3: Indicator 1.1.1: Number of local activities completed
                              by community action groups
                                                         Annual Report
                                                          for First Year        Project
                                       Performance             from           Reporting
                    Master Work        Management        Implementing           System
    Source of            Plan               Plan             Partners        (2/25/2008 &
     Target:        ( 12/15/2006)        (2/2/2007)         (2/2/2008)        5/21/2008)

 Target for Year I        886              946                775                740
 Target for Year II      1,115             913                n/a               1,015
 Target for Life of
 Program                 2,001             1,859               n/a              1,755

Such “moving” targets make it difficult to track progress and assess whether planned
results are actually being achieved. As noted in the previous discussion, the lack of
baseline data or other documented rationale for setting targets may have contributed to
the lack of stability in the performance targets.

Further, targets for several performance indicators were not consistently defined. For
example, targets for eight of the lower-level indicators were established as percentages
in the performance management plan and the Project Reporting System, but appeared
as absolute numbers for some of the implementing partners in the annual report. This
ambiguous situation resulted in one implementing partner comparing an absolute
number (797,077) against a target percentage (15%) in the annual report for the first
year of the program. Such a comparison was meaningless since no additional
information was provided to convert the absolute number into a comparable percentage.

In another example, targets in the Project Reporting System for one performance
indicator—percent of community action group members who are women and youth—
were split to independently measure results for women versus results for youth. On the
other hand, the performance management plan and annual report for the first year
included a single combined target which did not differentiate between women and youth.
Consequently, targets for that indicator in the Project Reporting System did not match
targets for the same indicator in the performance management plan and annual report.

The lack of realistic or consistently defined performance indicator targets diminishes
their usefulness to measure performance results, making it difficult for program
managers and other stakeholders to assess the program’s progress and to make
necessary adjustments to assure achievement of higher-level objectives. Consequently,
we are making the following recommendations.


        Recommendation No. 1: We recommend that USAID/Iraq reevaluate current
        performance indicator targets under its Community Action Program II to
        determine whether they are realistic and ensure that realistic targets are included
        in the revised performance management plan and the Project Reporting System.

        Recommendation No. 2: We recommend that USAID/Iraq develop procedures to
        ensure that changes to performance indicators and targets are properly
        documented.



                                                                                        10
Quality of Performance Results
Data Needs to Be Enhanced

     Summary: USAID policy provides guidance on ensuring the quality of performance
     results data. USAID/Iraq has taken steps to improve the quality of performance
     data following a prior audit of the predecessor Iraq Community Action Program that
     noted data quality issues. Despite actions taken to resolve those issues, the four
     implementing partners did not always have uniform guidelines for processing
     performance results data. As a result, many of the results being reported under the
     current program are inaccurate which makes it difficult for program managers and
     stakeholders to assess the program’s progress and to make necessary
     adjustments to assure achievement of higher-level goals.



USAID ADS 203.3.5.1 states that to be useful in managing for results and credible for
reporting purposes, data should be precise and reliable. Precise data should present a
fair picture of performance and enable management decisionmaking at the
appropriate levels. Reliable data should reflect stable and consistent data collection
processes and analysis methods over time.

The Office of Inspector General in Iraq issued an audit report7 on the Iraq Community
Action Program (predecessor of the current program) in January 2005. The report noted
that, due to untimely updating of the data and insufficient review of the data by the
implementing partners and mission staff, some of the data were either under- or over-
reported. The report recommended that USAID/Iraq develop and implement a plan of
action to improve the integrity of the data collection and reporting system in order for it to
be a more effective monitoring tool and a more accurate and reliable data source for
reporting purposes.

As a result, a Web-based Project Reporting System was revised under the Community
Action Program II in order to improve the timeliness and accuracy of performance results
data. In December 2007, the prime partner held a workshop to train system users and
to discuss issues regarding data collection and reporting that needed to be resolved. A
report that was issued based on the workshop concluded that definition and data entry
conventions varied among the partners. In addition, data was not being updated in the
system on a regular basis. Inconsistencies in reporting affected various performance
indicators, including data regarding job creation, the number of program beneficiaries,
contributions from participating communities and local governments, and the number of
completed projects.

Despite these actions, we found that data integrity problems continued under the current
program. As noted earlier, the program was awarded under an umbrella agreement with
one “prime” partner. However, a total of four partners actually implement the program,
each having responsibility to enter their performance results data into a shared Web-
based system. This has made it difficult to ensure that data were collected and reported
consistently. In particular, the four partners did not always have uniform definitions and


7
    Audit of USAID/Iraq’s Community Action Program, Report No. E- 267-05-001-P, dated January 31, 2005.


                                                                                                      11
processes for results data entered into the system. Consequently, partners followed
inconsistent processes and definitions when entering performance data into the system.

For example, the value of contributions to program-funded projects by participating
communities and local governments was not consistently accounted for and entered into
the system by implementing partners.               Most partners differentiated between
contributions from communities and contributions from local governments and entered
the values of those contributions separately under the respective performance indicators
designated by the system. One partner, however, entered the same value under each
indicator, thereby contributing to inaccurate system reporting for those two indicators, as
well as overstating the value of total contributions.

In another example, implementing partners did not consistently collect and enter job
creation data. Some partners entered a head count for a specific week but when
entering numbers for the following week did not report persons already reported in a
prior week. Alternatively, some partners reported a head count for every week
regardless of whether there was a change from one week to the next. In another case,
one partner entered weekly employment figures based solely on estimates approved by
the government in the project approval stage rather than actual employment figures.
This occurred due to the lack of common guidelines for data entry. Consequently, each
implementing partner had to decide independently how to collect and enter performance
data into the system.

In addition to inconsistent data entry practices, the system itself suffered from design
flaws. For example, in order to run a report that combined the results for all partners, the
system added together values that were entered as percentages, instead of adding
together the underlying numbers from the four partners and then deriving an aggregate
percentage. Another design flaw that made system reports difficult to interpret
concerned the comparison of actual to targeted values that were reported as
percentages. For example, if a target value was expressed as ten percent and an actual
value as seven percent, the system report would also present a third column, simply
labeled “Achieved,” which showed seventy percent. While seventy percent is correct as
a percentage of the targeted value achieved, the report presentation could lead to
confusion and misinterpretation. In fact, there was confusion among implementing
partner personnel over how to interpret these reports.

As a result of these data quality issues, the Project Reporting System produced reports
that were problematic in terms of managing the program. For example, according to
system-generated reports, targets were achieved for only three of twenty-one lower-level
performance indicators during the first year of the program. On the other hand, the
annual report issued by the implementing partners for the same period indicated that
targets had been achieved or exceeded for thirteen of those same performance
indicators. (See comparative results in appendix IV.)

Such data integrity problems need to be resolved in order to improve the system’s ability
to produce accurate and reliable reports on program performance. While we recognize
that USAID/Iraq and its implementing partners are already working on resolving these
issues, we reiterate the necessity of a quick resolution. Without accurate and reliable
information on program results, USAID/Iraq and other stakeholders may not know if the
program is having the desired effect or whether activities need to be adjusted in order to
achieve desired results. Therefore, we are making the following recommendations:


                                                                                         12
Recommendation No. 3: We recommend that USAID/Iraq perform a data quality
assessment to ensure that flaws in the Project Reporting System are identified and
corrected.

Recommendation No. 4: We recommend that USAID/Iraq develop a plan to
standardize data collection processes and analysis methods among the program
implementing partners.




                                                                               13
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Iraq management agreed with all four
recommendations and outlined actions planned and taken to implement the
recommendations. Based on our evaluation of management’s comments, we consider
that management decisions have been reached on all four audit recommendations.
Management comments are included in their entirety as appendix II.

Management concurred with Recommendation 1 and indicated that USAID/Iraq was
working with the implementing partner to ensure that data reported for year one was
accurate and to establish new targets for year two that reflected realistic assumptions.
Management plans to update both the performance management plan and the project
reporting system to reflect these changes. Final action is anticipated for September 30,
2008, when the Community Action Program (CAP) II ends. Although these actions will
have little impact on the current program, management points out that they will provide
strong baseline data for an anticipated follow-on program. Accordingly, we consider that
a management decision has been reached for Recommendation 1.

Management concurred with Recommendation 2 that changes in the performance
management plan targets must be properly approved and documented. Management
noted that, to date, none of the changes to the indicators have been approved by the
cognizant technical officer. Nevertheless, management stated that USAID/Iraq was
preparing a mission order that will address how revisions to performance management
plans should be documented. USAID/Iraq anticipates final action by September 30,
2008. Accordingly, we consider that a management decision has been reached for
Recommendation 2.

Management concurred with Recommendation 3 that relevant CAP II performance data
should be accurate in order to set a baseline for the performance management plan of
the anticipated follow-on program. However, management noted that the project
reporting system would not be used after CAP II ends and that, therefore, correcting the
system’s flaws would not serve any useful purpose. Accordingly, management stated
that it would conduct a data quality assessment only of CAP II indicators that would be
pertinent for setting baselines for the follow-on program. Final action is anticipated for
April 30, 2009. Accordingly, we consider that a management decision has been reached
for Recommendation 3.

Management concurred with Recommendation 4 and indicated that USAID/Iraq was
working with its implementing partners to standardize the reporting of program data.
This would help ensure that reported data matched the definitions in the approved
performance management plan and that the data was reported consistently among
partners. Final action is anticipated by September 30, 2008. Accordingly, we consider
that a management decision has been reached for Recommendation 4.




                                                                                       14
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.

The purpose of the audit was to determine if USAID/Iraq’s Community Action Program II
activities were achieving planned results and what has been the impact of those results.

The Community Action Program II is implemented by four implementing partners. The
program commenced on October 1, 2006 and will end on September 30, 2008. The
program was originally allocated $95 million. That allocation was subsequently increased
by $55 million on September 28, 2007, for a total of $150 million.

The scope of the audit included activities conducted under three of the five program
objectives. The remaining two objectives dealt with training to build implementing
partner expertise and the implementation of the Marla Ruzicka Iraqi War Victims Fund
and were not within the scope of the audit.

In conducting the audit, we assessed certain internal controls with respect to the
program. Specifically, the team assessed:

   •   Quarterly and annual reports submitted by the implementing partners
   •   Reports prepared by USAID/Iraq’s monitoring and evaluation contractor
   •   Results reported by the program’s Web-based Project Reporting System
   •   USAID/Iraq’s FY 2007 Federal Managers’ Financial Integrity Act self-assessment

We were unable to visit program activities in the field or interview local implementers or
beneficiaries due to the security situation within Iraq. However, we were able to obtain
sufficient, competent evidence through alternative procedures such as examining
program documents and reports, and interviewing USAID officials and implementing
partner representatives.

The audit fieldwork was performed from January 16, 2008 to May 26, 2008.

Methodology

To answer the audit objective, we examined pertinent documentation such as
cooperative agreements, minutes from USAID/Iraq portfolio reviews, independent
evaluations, performance management plan, implementing partners’ work plans, and
implementing partners’ performance reports. We interviewed the USAID/Iraq cognizant
technical officer responsible for the program, as well as representatives from the four
implementing partners (two partners were sent questionnaires via email). We also


                                                                                        15
                                                                        APPENDIX I 



interviewed several USAID/Iraq representatives on provincial reconstruction teams who
acted as activity managers for the program.

We did not establish any materiality thresholds for this audit.




                                                                                  16
                                                                                 APPENDIX II 




MANAGEMENT COMMENTS 



DATE:         July 31, 2008

TO:           Jay R. Rollins, Director OIG /Iraq

FROM:         Denise A. Herbol, Acting Mission Director /s/

SUBJECT:      USAID/Iraq Management Comments on Draft Audit report E-267-08-00X-P,
              Community Action Program II.


USAID/Iraq appreciates the opportunity to provide comments on the Office of Inspector
General's draft audit report regarding the Community Action Program II. We have reviewed the
report in detail and appreciate the useful and constructive suggestions. USAID/Iraq offers the
following management comments for your consideration in preparation of the final report.

Recommendation No.1: We recommend that USAID/Iraq reevaluate current performance
indicator targets under its Community Action Program II to determine whether they are
realistic and ensure that realistic targets are included in the revised performance
management plan and the Project Reporting System.

USAID/Iraq concurs with the finding that CAP II PMP targets require revision. In December
2007 it became clear that the performance data table submitted by CHF for year one was
clearly of low quality and needed to be revisited. There were problems of clearly inaccurate
numbers, variations among the CAP implementing partners and an underlying need to reassess
the assumptions behind targets. Since year two of the program included a substantial increase
in the funding available, new targets for year two would need to be submitted and approved in a
revised performance monitoring plan. USAID/Iraq requested that CHF revisit the PDT
submission and work with all the CAP II alliance partners to insure that numbers were accurate
and reflected a consistent methodology across partners. Upon final submission of a
performance data table for year one that satisfies the CAP II CTO and Mission M&E Specialist,
new targets will be presented for year two that represent both the correction of the underlying
realism of the assumptions and the increase in funding for year two. While this late approval
may not be relevant to the few remaining months of CAP II, it will strengthen the baseline data
for CAP III, under which the anticipated awards will be structured accordingly. The revision of
the targets to match the approved PMP in PRS will be completed by September 30, 2008 when
the CAP II program ends.

Recommendation No.2: We recommend that USAID/Iraq develop procedures to ensure
that changes to performance indicators and targets are properly documented.

USAID/Iraq concurs that changes in PMP targets must be properly approved and documented.


                                                                                            17
                                                                                    APPENDIX II


Revised PMP targets have not been approved by USAID for CAP II year two. Under the
substantial involvement provisions of the CAP II Cooperative Agreement, approval of the
performance monitoring plan and its associated targets rests with the CTO and cannot be
changed unilaterally by the implementing partner. Various submissions of data reports and
revised PMP proposals from CHF did contain revised targets, but these were not approved by
the CTO.

To address the question of documentation, USAID/Iraq is currently preparing a “Managing For
Results” Mission Order which addresses what documentation will be required for documenting
the development and revision of performance monitoring plans. This Mission Order will be
issued by September 30, 2008.

Recommendation No.3: We recommend that USAID/Iraq perform a data quality
assessment to ensure that flaws in the Project Reporting System are identified and
corrected.

USAID/Iraq concurs that CAP II performance data relevant to CAP III objectives should be
accurate in order to serve as a baseline for the CAP III PMP. The PRS system used under CAP
II will not be used for CAP III. Given the fact that CAP II is approaching closeout, however,
USAID/Iraq does not feel correcting its flaws is relevant.

In developing a PMP for CAP III, when awarded, USAID/Iraq will work with its monitoring and
evaluation contractor to assess the quality of CAP II performance indicators that are relevant to
the objectives of CAP III in order to ensure that the CAP III PMP baseline data and targets are
accurate and realistic. It is anticipated that this will be completed with the approval of the CAP
III PMP by April 30, 2009.

Recommendation No.4: We recommend that USAID/Iraq develop a plan to standardize
data collection processes and analysis methods among the program implementing
partners.

USAID/Iraq concurs that CAP implementing partner data collection must be standardized. After
the initial submission of the year one PDT, USAID/Iraq requested that CHF convene the CAP II
chiefs of party and their monitoring and evaluation staff to review each performance indicator
and ensure that reporting matched the definitions in the approved PMP and that they were
reported in a consistent way across partners. This process of harmonization is on-going and
will yield data comparable across partners by the time of CAP II closeout on September 30,
2008.

Moreover, the CAP III PMP will be designed under the leadership of USAID/Iraq in collaboration
with apparently successful applicants in a way that insures consistency across partners from the
beginning. It is anticipated that this will be completed with the approval of the CAP III PMP by
April 30 2009.




                                                                                               18
                                                                                       APPENDIX III 





                 Community Action Program II Results Framework8




8
  Acronyms: 1) CAP II – Community Action Program II, 2) LGP – USAID/Iraq’s local governance program, 3)
CAG – Community Action Group, 4) ICAP – Iraq Community Action Program (predecessor of CAP II).
Source: Iraq Community Action Program II (CAP II) CAP II Baseline Assessment Report.


                                                                                                    19
                                                                                                                                APPENDIX IV




                                                                                                                                                

                    Comparison of Intermediate Results per CAP II Annual Report and Project Reporting System for First Year (10/1/06-9/30/07)
                                                                               Per Annual Report                        Per PRS as of 2/25/08
                                                                     (percent achieved calculated by audit)      (percent achieved calculated by PRS)
                         Indicator                                Target         Actual      Percent     >100%   Target       Actual        Percent >100%
1. Number of local activities completed by CAGs                           775          682       88%               740          280       38%
2. USD ($) value of local contributions to community activities that
CAGs implement                                                         $2,212,000   $3,830,849   173%   Yes     $2,775,000   $1,218,395   44%
3. Percent of CAGs that have implemented activities with non-
USAID funding                                                                                                      18%          0%         0%
4. Number of direct beneficiaries of local CAG activities              2,154,375    6,981,391    324%   Yes     2,154,375    3,521,424    163%      Yes
5. Percent of CAG members who are women and youth (PRS
Women only as indicator is split out)                                     19%          30%       158%   Yes        17%          24%       144%      Yes
6. Number of CAGs participating in cluster projects                        76           97       128%   Yes        22%          12%        56%
7. Number of cluster projects completed                                    69           77       112%   Yes        70%          0%         0%
8. Number of CAGs trained in conflict mitigation and reconciliation        73           65        89%              42%          12%        28%
9. Number of CAGs trained on engaging sub-national government             123          136       111%   Yes        33%          23%        69%
10. Percent of CAGs referred to ICSP for CSO training                                                              47%          6%         13%
11. Number of CAGs that have become formal Civil Society
Organizations                                                              6            4        67%               2%           1%        43%
12. Percent of CAGs that have directly initiated engagement with
sub-national government                                                   46%          56%       111%   Yes        46%          36%       79%
13. Percent of CAGs that have leveraged sub-national government
contributions for their activities                                        55%          62%       113%   Yes        48%          25%       53%
14. Percent of total CAG activities that have had contributions from
sub-national government                                                   55%          62%       113%   Yes        40%           2%        5%
15. Aggregate value of local government contributions to CAGs          $1,604,374   $2,936,761   183%   Yes     $2,479,374   $9,921,897   400%      Yes
16. Percent of CAGs that have established mechanisms for citizen
input into local government decision-making                                                                        33%          21%       63%
17. Number of CAGs trained on topics related to local economic
development                                                               92           98        107%   Yes        78           33        42%
18. Number of new local activities initiated by CAGs which directly
address local economic development                                        26%          34%       131%   Yes        25%          1%         4%
19. Number of individuals who have received skills training for
employment or entrepreneurship                                           1,590        2,890      182%   Yes       1,590        1,393      88%
20. Number of short-term jobs created by CAG community
activities                                                              56,052       26,183      47%             56,052       10,063      18%
21. Number of long-term jobs created by CAG community activities        4,375        2,684       61%              4,375        1,545      35%
Number of targets achieved (100 percent or greater)                                                     13                                           3



                                                                                                                                          20

U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
